   May 12, 2005




Infrastructure and Environment

Department of Defense Education
Activity Data Call Submissions and
Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-073)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                Base Realignment and Closure
COBRA               Cost of Base Realignment Actions
DA&M                Director, Administration and Management
DDESS               Department of Defense Domestic Dependent Elementary and
                       Secondary Schools
DoDDS               Department of Defense Dependents Schools
DoDEA               Department of Defense Education Activity
DoD OIG             Department of Defense Office of Inspector General
DWO                 Defense-Wide Organizations
HSA                 Headquarters and Support Activities
ICP                 Internal Control Plan
JCSG                Joint Cross Service Group
JPAT 7              Joint Process Action Team Criterion Number 7
MFR                 Memorandum for Record
OSD                 Office of the Secretary of Defense
               Department of Defense Office of Inspector General
Report No. D-2005-073                                                      May 12, 2005
   (Project No. D2004-D000LA-0099.000)

            Department of Defense Education Activity Data Call
               Submissions and Internal Control Processes
                 for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and Department of
Defense Education Activity (DODEA) management personnel should read this report.
The report discusses the adequacy, completeness, and integrity of the data provided by
DoDEA to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One–Policy,
Responsibilities, and Procedures,” April 16, 2003, that stated the Department of Defense
Office of Inspector General would review the accuracy of BRAC data and the
certification process.

The BRAC 2005 process was divided into the following data calls: capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls were collectively known as the second data call. We
issued site memorandums for the capacity analysis data call and second data call to
summarize the results of the site visits. This report summarizes issues related to the
BRAC 2005 process used by DoDEA as of March 18, 2005.

DoDEA is one of the 11 Defense-Wide Organizations. DoDEA is a civilian field activity
within DoD under the authority, direction, and control of the Principal Deputy Under
Secretary of Defense for Personnel and Readiness. The mission of DoDEA is to plan,
direct, coordinate, and manage the education programs for eligible dependents of military
and civilian personnel stationed overseas and at select military installations within the
continental United States and Puerto Rico. It was created in 1994 with the merger of the
Department of Defense Dependents Schools (DoDDS) and the Department of Defense
Domestic Dependent Elementary and Secondary Schools (DDESS). DoDEA operates
222 public schools located in 13 foreign countries, 7 states, Guam, and Puerto Rico.
DoDEA’s schools are divided into three areas: DDESS, located at Peachtree City,
Georgia; DoDDS-Europe, located at Wiesbaden, Germany; and DoDDS-Pacific, located
at Okinawa, Japan. DoDEA is headed by a Director who oversees all agency functions
from its headquarters located in Arlington, Virginia.

Results. We evaluated the validity, integrity, and supporting documentation of all
BRAC 2005 data that DoDEA submitted in response to the capacity analysis data call,
second data call, and scenario specific data call as of March 18, 2005. We also evaluated
compliance with the Office of the Secretary of Defense’s and Defense-Wide
Organizations’ internal control plans. DoDEA provided BRAC 2005 data that were
generally supported, complete, and accurate, once corrections were made. In addition,
DoDEA did not fully comply with applicable internal control plans. We identified
control weaknesses with marking, securing, and tracking the BRAC 2005 responses and
supporting documentation. Although we identified several weaknesses in marking and
securing documents, documents were safeguarded, and therefore, we consider the
identified weaknesses to be immaterial and should not impact the integrity of the
BRAC 2005 data submitted to the Office of the Secretary of Defense BRAC Office.
Despite the problems discussed above, we consider the data, responses, and sources to be
generally reasonable for use in the BRAC 2005 process. Subsequent to our visit, the
Joint Process Action Team 7 group requested responding activities to update some of
their responses based upon new guidance. We did not review the supporting
documentation for the changed responses.

Management Comments. We provided a draft of this report on April 22, 2005. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objectives                                                           4

Finding
     Department of Defense Education Activity BRAC 2005 Data Call
        Submissions and Internal Control Processes                  5

Appendixes
     A. Scope and Methodology                                       11
        Management Control Program Review                           14
        Prior Coverage                                              14
     B. Report Distribution                                         15
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit BRAC recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. Office of the Secretary of Defense (OSD) established seven Joint
    Cross Service Groups (JCSG)–Education and Training, Headquarters and Support
    Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    realignment and closure recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 process, mandated for the United States and
    its territories, was divided into the following data calls–capacity analysis,
    supplemental capacity, military value, Cost of Base Realignment Actions
    (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
    specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
    calls were collectively known as the second data call. The Services, Defense
    agencies, and Defense-Wide Organizations (DWO) used either automated data
    collection tools or a manual process to collect data call responses. Each data call
    had a specific purpose as follows:

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investment) of proposed
               realignment and closure actions.

                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios.1
                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           Department of Defense Office of Inspector General Responsibility. The
           Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum One–Policy, Responsibilities, and Procedures,”
           April 16, 2003, requires the Department of Defense Office of Inspector General
           (DoD OIG) to provide internal control plan (ICP) development and
           implementation advice, review the accuracy of BRAC data, and evaluate the data
           certification processes. In addition, the memorandum requires DoD OIG
           personnel to assist the JCSGs and DoD Components as needed. This resulting
           report summarizes issues related to the Department of Defense Education Activity
           (DoDEA) BRAC 2005 process.

           DWO. DWO is a collective term for 11 Defense Organizations.2 DoDEA is one
           of the 11 DWOs. The OSD Director, Administration and Management (DA&M)
           led the DWO BRAC 2005 process, and was responsible for collecting and
           submitting BRAC data for the DWOs. OSD DA&M was the primary data
           repository for all DWO data collections and requests, and assembled and
           forwarded BRAC-related data.

           ICPs. The DWO ICP outlined internal control procedures designed to ensure the
           accuracy, completeness, and integration of all information and analytical
           processes used in the BRAC 2005 process. Before the BRAC data calls were
           released to the Services and Defense agencies, OSD required the Services,
           Defense agencies, and DWOs to prepare ICPs that incorporated and supplemented
           the OSD ICP. The OSD ICP was issued in “Transformation Through Base
           Realignment and Closure (BRAC 2005) Policy Memorandum One–Policy,
           Responsibilities, and Procedures,” April 16, 2003. OSD DA&M prepared the
           “Defense-Wide Organizations Internal Control Plan for the 2005 Base
           Realignment and Closure Process,” dated January 15, 2004. The overall DWO
           ICP and Appendixes L and M applied to the 11 DWOs. Each DWO was
           responsible for preparing an organization-specific appendix to supplement the
           overall DWO ICP. Appendix G of the DWO ICP applied to DoDEA. For the
           capacity analysis data call, DoDEA used a manual process to collect data, and for
           the second data call, DoDEA used the Data Gathering Tool, a modified Microsoft
           Access tool developed for those not using an automated data collection tool. For

1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.
2
    The 11 organizations that comprise the DWO are OSD, Joint Chiefs of Staff, DoD OIG, Office of
    Economic Adjustment, Department of Defense Education Activity, Defense Human Resources Activity,
    TRICARE Management Activity, American Forces Information Service, Defense Prisoner of
    War/Missing Personnel Office, Defense Technology Security Administration, and Washington
    Headquarters Services.



                                                        2
           the second and scenario specific data calls, DoDEA officials stated that they used
           the updated August 2, 2004, DWO ICP.

           DoDEA. DoDEA is a civilian field activity within DoD under the authority,
           direction, and control of the Principal Deputy Under Secretary of Defense for
           Personnel and Readiness.3 The mission of DoDEA is to plan, direct, coordinate,
           and manage the education programs for eligible dependents of military and
           civilian personnel stationed overseas and at select military installations within the
           continental United States and Puerto Rico. It was created in 1994 with the merger
           of the Department of Defense Dependents Schools (DoDDS) and the Department
           of Defense Domestic Dependent Elementary and Secondary Schools (DDESS).4
           DoDEA operates 222 public schools located in 13 foreign countries, 7 states,
           Guam, and Puerto Rico. DoDEA’s schools are divided into three areas: DDESS,
           located at Peachtree City, Georgia; DoDDS-Europe, located at Wiesbaden,
           Germany; and DoDDS-Pacific, located at Okinawa, Japan. DoDEA is headed by
           a Director who oversees all agency functions from its headquarters located in
           Arlington, Virginia.

           The Director of DoDEA oversees headquarters operations including supervising
           and administering DoDEA financial management activities and developing
           policy, guidance, regulations, and instructions to administer and manage
           DoDEA’s education programs. The headquarters staff includes two associate
           directors, one responsible for Financial and Business Operations and one for
           Education. Divisions under the Associate Director for Financial and Business
           Operations include Logistics, Procurement, Safety and Security, Information
           Technology, and the Office of the Comptroller. Divisions under the Associate
           Director for Education include Human Resources, Educational Technology,
           Program Support and Business Management. In addition to its headquarters
           branch, DoDEA has a small procurement office, the DoDEA Education Supplies
           Procurement Office, located in Richmond, Virginia.

           DDESS is one of the two distinct educational systems operated by DoDEA and is
           headquartered in Peachtree City, Georgia. DDESS provides educational
           programs and operates 65 schools on 17 military installations located in 7 states
           and Puerto Rico. The Director of DDESS is responsible for the organization,
           management, funding, direction, and supervision of DDESS schools. The
           Director of DDESS is also responsible for DoDDS-Cuba.

           DoDDS is the other distinct educational system operated by DoDEA. DoDDS,
           however, is divided into two areas of responsibility: DoDDS-Europe, located at
           Wiesbaden, Germany, and DoDDS-Pacific, located at Okinawa, Japan. DoDDS
           provides free public education for eligible minor dependents of U.S. military and
           DoD civilian personnel stationed overseas. DoDDS-Pacific operates 45 schools
           at 18 installations within 2 countries, while DoDDS-Europe operates 112 schools
3
    DoD Directive 5124.8, “Principal Deputy Under Secretary of Defense for Personnel and Readiness,”
    July 16, 2003, dissolved the Assistant Secretary of Defense for Force Management Policy and gave his
    responsibilities to the Principal Deputy Under Secretary of Defense for Personnel and Readiness.
4
    Public Law 103-337 renamed Department of Defense Section 6 Schools as Department of Defense
    Domestic Dependent Elementary and Secondary Schools.

                                                      3
    in 10 countries. The Director of DoDDS-Pacific is also responsible for DDESS-
    Guam.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DoDEA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DoDEA complied with
    the OSD and DWO ICPs. This report is one in a series on data call submissions
    and internal control processes for BRAC 2005. See Appendix A for a discussion
    of the scope and methodology and prior coverage related to the audit objectives.




                                        4
           Department of Defense Education
           Activity BRAC 2005 Data Call
           Submissions and Internal Control
           Processes
           DoDEA provided BRAC 2005 data that were generally supported,
           complete, and accurate, once corrections were made. However,

              •   DoDEA did not provide updated supporting documentation during
                  follow-up analysis for capacity analysis data call question
                  numbers 347 and 482; therefore, these questions are still
                  considered partially supported. DoDEA did provide updated
                  supporting documentation during follow-up analysis for capacity
                  analysis data call question numbers 462 and 464; however, we still
                  consider those responses partially supported. Additionally,
                  DoDEA did not provide adequate supporting documentation for
                  capacity analysis data call question number 446, which is still
                  considered unsupported.

              •   DoDEA made appropriate changes to capacity analysis data call
                  question numbers 371 and 480; however, we were unable to verify
                  that those changes made it into the OSD Database.

              •   Answers provided for scenario specific data call question number
                  HSA-0053 did not match supporting documentation.

              •   Although the DWO ICP properly incorporated and supplemented
                  the OSD ICP, DoDEA did not fully comply with the ICPs, in that
                  it did not ensure data was appropriately marked and stored.

           We considered DoDEA responses to the capacity analysis data call,
           second data call, and scenario specific data call, once recommended
           changes had been made, to be generally supported. Although we
           identified several weaknesses in marking and securing documents,
           documents were safeguarded, and therefore, we consider the identified
           weaknesses to be immaterial and should not impact the integrity of the
           BRAC 2005 data submitted to the Office of the Secretary of Defense
           BRAC Office.


DoDEA BRAC 2005 Data Call Submissions
    The BRAC 2005 data reported by DoDEA were generally supported, complete,
    and accurate, once corrections were made. DoDEA Headquarters answered
    questions applicable to DoDEA components, and we evaluated the validity and
    integrity of the documentation used to support responses to the questions.

                                        5
           Specifically, we compared responses to supporting documentation and reviewed
           “Not Applicable” responses to determine whether the responses were reasonable.

           Capacity Analysis Data Call. As a result of our review of DoDEA BRAC data,
           DoDEA revised responses and provided supporting documentation to correct
           many of the issues noted in the capacity analysis site memorandum. Initial
           DoDEA responses provided for the capacity analysis data call were largely
           unsupported.

           OSD DA&M directed DoDEA to answer 75 of the 752 capacity analysis data call
           questions identified as applicable to the DWOs by the HSA JCSG. OSD DA&M
           also directed DoDEA to review the remaining questions to determine if any other
           questions were applicable to DoDEA. DoDEA Headquarters officials stated that
           they reviewed the 75 questions applicable to DWOs, as well as the remaining
           capacity analysis data call questions, and determined that only 13 were applicable
           to its organization. We evaluated those 13 responses and corresponding
           supporting documents that DoDEA Headquarters provided. Additionally, we
           reviewed the remaining 62 questions answered “Not Applicable” to ensure that
           they were truly not applicable to DoDEA. We determined that those responses
           were reasonable.

           The audit team conducted a follow-up analysis on all questions that were not
           considered ‘supported’ during the capacity analysis data call. The analysis
           included those questions originally considered ‘partially unsupported,’
           ‘unsupported,’ and ‘supported’ but required a change adjudication.5 Specifically,
           the audit team determined whether DoDEA officials had taken any follow-up
           actions to provide additional supporting documentation and made corrections
           based on the results and recommendations provided by the prior audit team during
           the capacity analysis data call.

           Originally, we identified a total of 10 DoDEA responses with inadequate support
           or inaccurate responses. Question numbers 347, 462, 464, and 482 were
           considered ‘partially unsupported,’ and question numbers 371, 387, 446, 448,
           480, and 582 were considered ‘unsupported.’ Also, question numbers 311 and
           466 were considered ‘supported,’ but required a change adjudication. We
           received copies of the requested change adjudications on December 8, 2004.

           DoDEA provided updated supporting documentation and revised responses for all
           applicable questions, except for question numbers 347 and 482. After the
           completion of the follow-up analysis, the audit team concluded that question
           numbers 371, 387, 448, 480, and 582 are ‘supported;’ question numbers 347, 462,
           464, and 482 are ‘partially supported;’ and question number 446 is ‘unsupported.’
           Specifically,

                        •   DoDEA responses to question numbers 347 and 482 were
                            considered ‘partially supported.’ DoDEA did not provide updated

5
    A change adjudication is the process for amending and documenting the correction of certified responses
    in the BRAC data.



                                                      6
               supporting documentation to these questions during the follow-up
               analysis.

           •   DoDEA response to question number 462 was considered
               ‘partially supported.’ DoDEA officials were unable to provide
               adequate supporting documentation for the total number of
               Civilian Executive, Civilian Management, and Civilian Other
               Staff.

           •   DoDEA response to question number 464 was considered
               ‘partially supported.’ We were unable to fully validate the data
               because DoDEA did not indicate what source document was used
               to determine the number of personnel occupying the expansion
               space.

           •   DoDEA response to question number 446 was considered
               ‘unsupported.’ We were unable to fully validate the data because
               DoDEA did not provide a written explanation of the calculations
               used to determine the square footage responses. Therefore,
               DoDEA made assumptions in answering the question.

In addition, all aspects of question numbers 371 and 480 were considered
supported, but DoDEA officials need to provide a change adjudication to the OSD
BRAC Office for those questions; therefore we were unable to verify that those
changes made it into the OSD database.

Second Data Call. DoDEA provided responses for the second data call that were
generally accurate, reasonable, and adequately supported, once corrections were
made. OSD DA&M identified 73 questions as applicable to DoDEA and directed
DoDEA to review the remaining questions to determine if any other questions
were applicable. DoDEA reviewed the remaining questions and responded to
35 questions for DoDEA Headquarters and 33 questions for the Peachtree City
office. We believe that the “Not Applicable” answers were reasonable. The
DoDEA BRAC trusted agent answered questions for both DoDEA Headquarters
and the Peachtree City offices. At the conclusion of our on-site review, responses
for the second data call were partially supported. However, after our exit
conference, DoDEA officials corrected those responses that were unsupported
and provided additional documentation for those responses that were not fully
supported. We verified and concurred with those changes in our second data call
site memorandum. The site memorandum, however, did state that because the
Director of DoDEA had not certified the documentation through signature, the
data provided was uncertified. On March 18, 2005, the Director of DoDEA
signed a letter certifying the responses for the JPAT 7, COBRA, HSA JCSG
military value questions, and HSA JCSG supplemental capacity data calls.
Subsequent to our visit, the JPAT 7 group requested responding activities to
update some of their responses based upon new guidance. We did not review the
supporting documentation for the changed responses. We could not verify the




                                    7
           response to HSA JCSG military value question numbers 1907 and 19086 because
           we were unable to validate the steps taken to generate the reports.

           Scenario Specific Data Calls. DoDEA’s responses to the BRAC scenario
           specific data calls were generally supported and reasonable. We evaluated eight
           HSA scenarios provided to DoDEA Headquarters. At first, scenario data call
           responses did not have any associated Memorandums for Record (MFR);
           however, after alerting DoDEA officials to this need, MFRs were prepared.
           DoDEA Headquarters provided reasonable explanations of the methodologies
           used to respond to most of the scenarios; however, the audit team found several
           errors. For scenario specific data call question HSA-0053 answers provided by
           DoDEA did not match supporting documentation. Specifically, the MFR
           supporting the space requirements for a Secret Internet Protocol Router Network
           Room states that the room needs to be 10 feet by 14 feet for a total of 140 square
           feet; however, according to the answer provided in the scenario, the requirement
           was 234 square feet. As another example, the requirement for the Emergency
           Operations Center is 1404 square feet; however, the MFR states that the need is
           only 375 square feet. Finally, the audit team received an MFR for “Weight
           Requirements for Human Resources” whose value was not included in the answer
           to the scenario. DoDEA officials were asked to correct these errors by either
           correcting the MFR to agree with the answers provided in the scenario, or to
           correct the answer to match the MFR, through a change adjudication. Although
           DoDEA officials provided three change adjudications, the changes were incorrect
           as two of the changes were the same answer initially provided to the OSD BRAC
           Office. One change was incorrect as a weight figure was required to be
           submitted; however, a square footage figure was provided.


Internal Control Processes
           The DWO ICP including the DoDEA appendix properly incorporated and
           supplemented the OSD ICP; however, for the capacity analysis data call, second
           data call, and scenario specific data call, we identified ICP noncompliance issues.
           To evaluate compliance with the ICPs, we ensured that the DWO ICP properly
           incorporated and supplemented the OSD ICP and evaluated whether personnel
           responsible for answering BRAC questions completed nondisclosure agreements,
           and marked, secured, and maintained BRAC data. Specifically, we reviewed
           BRAC documents to ensure data were appropriately marked with the
           “Deliberative Document–For Discussion Purposes Only–Do Not Release Under
           FOIA” header or footer, secured in locked containers, and whether maintenance
           logs were kept showing each time information from the official BRAC file was
           accessed.

           Completeness of ICPs. The DWO ICP outlined management controls designed
           to ensure the accuracy, completeness, and integration of all information and

6
    These questions asked for the number of meetings between an organization’s senior officials, including
    flag officers, and senior officials from another organization located in the Washington D.C., area, as well
    as meetings with members of Congress or their staffs.



                                                        8
    analytical processes upon which the DWO was to submit documents, data, and
    information used in the BRAC 2005 process. The DWO ICP established BRAC
    2005 responsibilities of DoDEA and control mechanisms to safeguard DoDEA
    BRAC information. The ICP detailed the requirements for verifying the accuracy
    of data and information. In addition, the ICP identified required documentation to
    justify changes made to data and information received from subordinate levels of
    the organization. Specifically, the ICP included direction on the completion of
    nondisclosure agreements, and the collection, marking, and safeguarding of
    BRAC data. The DWO ICP was updated August 2, 2004, to reflect changes to
    the documentation requirements for DWO BRAC 2005 ICP implementation.

    Compliance with ICPs. Generally, DoDEA did not fully comply with DWO ICP
    procedures. The site data collection processes for the capacity analysis, second,
    and scenario specific data calls did not fully comply with applicable ICPs.
    During the validation process, we noted the following:

        •   all data were not marked with the appropriate header or footer as required
            by the DWO ICP;

        •   BRAC data were being stored in additional storage containers not
            identified in the DoDEA appendix;

        •   the DoDEA trusted agent did not maintain logs when BRAC 2005
            documents were removed from the secured office; and

        •   BRAC data were certified by one of DoDEA’s trusted agents, and not by
            the Director of DoDEA, as required by the DoDEA appendix. However,
            on March 18, 2005, the Director of DoDEA signed a letter certifying the
            responses for the JPAT 7, COBRA, HSA JCSG military value questions,
            and HSA JCSG supplemental capacity data calls.

     Although we identified several weaknesses in marking and securing documents,
     documents were safeguarded, and therefore, we consider the identified
     weaknesses to be immaterial and should not impact the integrity of the BRAC
     2005 data submitted to the OSD BRAC Office. Despite the problems discussed
     above, we consider the data, responses, and sources to be generally reasonable
     for use in the BRAC 2005 process.


Conclusion
    DoDEA reported BRAC 2005 data that were generally supported, complete, and
    accurate, after corrections were made; however, data collection processes
    generally did not fully comply with the ICPs. We discussed the results of the data
    call submissions and ICP review with DoDEA management. We determined that
    the identified control weaknesses were immaterial and should not impact the
    integrity of the DoDEA BRAC 2005 data, and despite those problems, we
    consider the data, responses, and sources to be generally reasonable for use in the
    BRAC 2005 process.

                                         9
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DoDEA
   BRAC 2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing “Not Applicable” responses to determine whether
   the responses were reasonable. Questions had either an answer or a “Not
   Applicable” response; a “Not Applicable” response was for questions determined
   not to apply to a site.

   We ensured that the DWO ICP incorporated and supplemented the requirements
   of the OSD ICP. We evaluated site data collection procedures to determine
   whether they were in compliance with DoDEA appendix to include the proper
   marking, handling and storage of BRAC 2005 data. In addition, we interviewed
   the personnel responsible for preparing the responses to the data calls.

   DoDEA Headquarters provided all responses from DoDEA components
   responsible for providing responses. We performed all of our work at DoDEA
   Headquarters, Arlington, Virginia. We reviewed guidance and documentation
   dated from September 2002 to March 2005.

   Capacity Analysis Data Call. A January 23, 2004, OSD DA&M memorandum
   directed DoDEA to answer 75 of 752 capacity analysis data call questions
   identified as applicable to DWOs by the HSA JCSG. OSD DA&M also directed
   DoDEA to review the remaining questions to determine if any other questions
   were applicable to DoDEA. DoDEA Headquarters officials stated that they
   reviewed the 75 questions applicable to DWOs, as well as the remaining capacity
   analysis data call questions, and determined that only 13 were applicable to its
   organization. We did not validate the OSD DA&M or DoDEA selection process
   or the questions not selected. DoDEA Headquarters answered capacity analysis
   data call questions for all applicable sites. On multiple site visits we evaluated
   those 13 responses and corresponding supporting documents that DoDEA
   Headquarters provided. Additionally, we reviewed the remaining 62 questions
   answered “Not Applicable” to ensure that they were truly not applicable to
   DoDEA. We issued a memorandum to summarize the results of these site visits.
   Table 1 shows the question responses and support that we reviewed by site.




                                       10
           Table 1. Capacity Analysis Data Call Responses Reviewed
                                                Question Number
         DoDEA Site                    Answered               Not Applicable
DoDEA Headquarters, Arlington, 347, 371, 387, 446, 448, 313-329, 348-370, 372-
Virginia                       462, 464, 466, 471, 480, 386, 388, 393, 447, 461,
                               482, and 582              468, 478, 481
DDESS, Peachtree City, Georgia 311
DoDEA, Richmond, Virginia      462 and 466

      Second Data Call. DoDEA received guidance from OSD DA&M on June 18,
      2004, June 23, 2004, and July 22, 2004, directing them to answer certain HSA
      JCSG military value questions; HSA JCSG supplemental capacity questions;
      COBRA questions; and JPAT 7 questions. OSD DA&M also directed DoDEA to
      review the remaining questions to determine if any other questions were
      applicable to DoDEA. Specifically, we reviewed JPAT 7 question numbers 1400
      through 1417, 1420, and 1421; COBRA question numbers 1500 through 1507;
      HSA JCSG military value question numbers 1900, 1904 through 1927, and 1947
      through 1957; and HSA JCSG supplemental capacity question numbers 4079
      through 4081, 4096, and 4099 through 4103.

      DoDEA Headquarters reviewed the assigned data call questions and answered
      those questions for their sites. However, DoDEA did not comply with the
      requirement to have all stand-alone facilities and host installations including
      leased facilities answer JPAT 7 and COBRA data call questions, as they did not
      provide answers for its Richmond, Virginia, office. DoDEA officials stated that
      they did not intend to provide answers for this office because it only had three
      people, and they were in the process of closing the office.

      We issued one site memorandum to summarize the results of these site visits.
      Subsequent to our visit, the JPAT 7 group requested responding activities to
      update some of their responses based upon new guidance. We did not review the
      supporting documentation for the changed responses. Table 2 shows the question
      responses and support that we reviewed by site.




                                          11
                 Table 2. Second Data Call Responses Reviewed
                                                 Question Number
         DoDEA Site                     Answered              Not Applicable
DoDEA Headquarters, Arlington, 1400-1417, 1420, *         1500, 1502-1504, 1506,
Virginia                        1421,* 1501, 1505, 1900, 1507, 1904, 1905, 1906,
                                1907,** 1908,** 1911,     1909, 1910, 1913-1917,
                                1912, 1918, 1919, 1947, 1920-1927, 1948-1957,
                                and 4099-4103             4079-4081, and 4096
                                                 *
DDESS, Peachtree City, Georgia 1400-1417, 1420,           1500, 1502-1504, 1507,
                                1421,* 1501, 1505, 1506, 1904-1910, 1912-1917,
                                1900, 1911, 1918, 1919, 1920-1927, 1948-1957,
                                1947, and 4099-4103       4079-4081, and 4096
*
    The JPAT 7 group replaced question numbers 1418 and 1419 with question numbers 1420 and 1421.
**
  We reviewed the responses for question numbers 1907 and 1908; however, we were unable to make a
determination as to whether the responses were reasonable and accurate based on the source documents
available.




           Scenario Specific Data Calls. As of March 18, 2005, the HSA JCSG had
           assigned eight scenario specific data calls to DoDEA. Specifically, the HSA
           JCSG assigned DoDEA scenario numbers HSA-0029, HSA-0030, HSA-0031,
           HSA-0053, HSA-0088, HSA-0096, HSA-0097, and HSA-0106.* We evaluated
           the scenario responses from DoDEA Headquarters for reasonableness and
           adequate support.

           We performed this audit from February 2004 through March 2005 in accordance
           with generally accepted government auditing standards.

           Use of Computer-Processed Data. We did not test the accuracy of the
           computer-processed data used to support answers to data call questions because
           of time constraints. Potential inaccuracies in the data could impact the results.
           However, the BRAC data were certified as accurate and complete to the best of
           the certifier’s knowledge and belief. We did not review the data gathering tool
           used by DoDEA during the second data call.

           Government Accountability Office High-Risk Areas. The Government
           Accountability Office has identified several high-risk areas in DoD. This report
           provides coverage of the Federal Real Property and DoD Support Infrastructure
           Management high-risk areas.




*
    As of April 13, 2005, HSA JCSG had deleted HSA-0106.



                                                   12
Management Control Program Review
    We evaluated DoDEA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed procedures
    DoDEA used to develop, submit, and document its data call responses. In
    addition, we reviewed the controls implemented to safeguard against the
    disclosure of DoDEA BRAC data before responses were forwarded to the OSD
    BRAC Office. Management controls were adequate as they applied to the audit
    objective. See finding for specific details. We did not review the DoDEA
    management control program because its provisions were not deemed applicable
    to the one-time data collection process.

Prior Coverage
    The DoD Inspector General has issued two memorandums discussing the DoDEA
    BRAC 2005 data call submissions and internal control processes.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Department of Defense Education Activity for Base Realignment and Closure
    2005,” December 22, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Department of Defense Education Activity for Base Realignment and
    Closure 2005,” May 7, 2004




                                       13
Appendix B. Report Distribution

Office of the Secretary of Defense
           Director, Base Realignment and Closure (Installations and Environment)

           Director, Department of Defense Education Activity


Non-Defense Federal Organization
           Government Accountability Office*




*
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.




                                                     14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Deborah L. Culp
Donald A. Bloomer
Robert F. Prinzbach II
Richard B. Vasquez
Sean A. Davis
Mackensie E. Ryan
Julie R. Zarlengo
Meredith H. Johnson
